<html>
<title> - [H.A.S.C. No. 114-3] WORLDWIDE THREATS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.                                 
                          [H.A.S.C. No. 114-3]

                           WORLDWIDE THREATS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 3, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                __________
                                
                                
                                
                  U.S. GOVERNMENT PUBLISHING OFFICE
94-090                 WASHINGTON : 2015                  
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3156415e715244424559545d411f525e5c1f">[email&#160;protected]</a>  
                       
                      
                      
                      
                      
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
STEVEN M. PALAZZO, Mississippi       DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey

                  Robert L. Simmons II, Staff Director
                 Joe Whited, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                           Aaron Falk, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Committee 
  on Armed Services..............................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Stewart, LtGen Vincent R., USMC, Director, Defense Intelligence 
  Agency; accompanied by Lt Gen William C. Mayville, USA, 
  Director for Operations, J-3, The Joint Staff, and Mark S. 
  Chandler, Acting Director for Intelligence, J-2, The Joint 
  Staff..........................................................     3

                                APPENDIX

Prepared Statements:

    Stewart, LtGen Vincent R.....................................    40
    Thornberry, Hon. William M. ``Mac''..........................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................    69
    Mr. O'Rourke.................................................    69
    Mr. Takai....................................................    69

Questions Submitted by Members Post Hearing:

    Mr. Aguilar..................................................    75
    Mr. Rogers...................................................    73
    Mr. Shuster..................................................    74
                           WORLDWIDE THREATS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, February 3, 2015.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    For the first time in nearly a decade, the House Armed 
Services Committee meets today to hear testimony on threats 
facing our country from around the world.
    And I have certainly been struck by the consensus of 
opinion from our most respected and practiced statesmen that 
our country faces a strategic environment today more complex, 
more diverse, and, in many ways, more dangerous than we have 
ever faced before.
    I noticed just last week Dr. Henry Kissinger testified 
before the Senate that we have not faced a more diverse and 
complex array of crises since the end of the Second World War. 
And former Secretary of State Madeleine Albright said we are 
living through a time of monumental change across the world.
    Several observers have said if it was any one or two of 
these challenges we could probably deal with them, but it is 
the combination of things all happening at the same time that 
presents unprecedented national security challenges. From the 
continued modernization of nuclear programs to conventional and 
unconventional aggressiveness by rival competitors, to global 
spread of a terrorist ideology and dealing with new domains of 
warfare, a clear-eyed look around the world is sobering. And, 
as members of the National Defense Panel testified before us 
just about 2 months ago, they expect the situation to 
deteriorate further.
    I think it is essential that we better understand this 
threat as we approach the annual National Defense Authorization 
Act and as we discuss with our colleagues the appropriate 
amount of money that needs to be spent to defend the country.
    Today, we are pleased to welcome the new Director of the 
Defense Intelligence Agency, Lieutenant General Vincent 
Stewart, as well as Acting Director for Intelligence for the 
Joint Staff, Mr. Mark Chandler, and the Director for Operations 
for the Joint Staff, Lieutenant General William Mayville, to 
give us a consumer perspective on intelligence.
    I would ask unanimous consent that my complete opening 
statement be made part of the record.
    And I would yield to the distinguished acting ranking 
member, Ms. Davis.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 39.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you, Mr. Chairman.
    And I certainly want to welcome our witnesses here today, 
and thank you very much for joining us.
    I want to make just a few comments that Ranking Member Adam 
Smith had prepared in response to this hearing today on the 
worldwide threats.
    As you acknowledge, Mr. Chairman and others, the world is a 
dangerous and complicated place, and it seems to be getting 
more complicated.
    It is easy to recite a list of challenges. We see Russia 
seizing the territory of Ukraine and supplying men, weapons, 
and assistance to the rebels there.
    In recent months, North Korea conducted a cyberattack 
against a major movie studio, bringing home to many Americans 
not just the challenge posed by the regime but the very real 
ways in which cyber operations can impact all of our lives.
    While we are engaged in very difficult negotiations with 
the Iranian regime, they continue to pose challenges in a 
number of places, such as backing the Houthis in Yemen, 
Hezbollah in Lebanon, and the Assad regime in Syria.
    At the same time, both they and we are assisting the Iraqi 
Government in its struggles with the Islamic State of Iraq and 
the Levant, known as ISIL. ISIL and the Syrian conflict at 
large provide a seemingly endless list of potential challenges 
and threats, from waves of refugees to stabilizing neighborhood 
regimes, to the spread of terrorism, to broader Sunni-Shia 
fighting, to foreign fighters returning home, and the list goes 
on.
    Even as all of this continues, Al Qaeda core has not 
entirely been eliminated, and some Al Qaeda offshoots continue 
to plot attacks against us and cause further regional problems. 
We cannot take our eye off that ball, just as we need to be 
very cognizant that we still maintain troops in Afghanistan. 
And that country, while vastly better off than before, is still 
very fragile.
    And, similarly, Pakistan, a nuclear-armed state, is 
currently conducting major and effective operations against 
some internal extremist threats but hardly all of them, and the 
future stability of Pakistan is not a settled matter.
    As we look long term, Russia's role in Europe and Asia is 
not clear, but their recent actions and their renewed and 
ongoing military buildup are not encouraging signs. Although we 
should not assume an adversarial relationship with China, their 
actions in the South China Sea and their military developments 
bear watching.
    In summary, the world has hardly become less complex since 
the fall of the Iron Curtain. While we may not face the same 
existential threat posed by the Soviet Union, the threats we 
face today are still very real and, again, very complex.
    An increase in deep understanding of these threats and the 
trends and developments that drive them is key for this 
committee as we work to shape the defense budget and help the 
Department of Defense [DOD] and the rest of the national 
security establishment in their ongoing actions in our defense.
    Thank you, Mr. Chairman. We look forward to the 
presentations today.
    The Chairman. Thank you, Ms. Davis.
    For the members' information, our plan is to have a closed 
classified session, as time and interest permits, after the 
open session. So I would just remind everybody we are in open 
session here and to keep that in mind with the questions. And, 
obviously, our witnesses will remember that too. That closed 
session will take place in 2212.
    Again, I want to thank you all for being here.
    Without objection, your complete written statements will be 
made part of the record.
    And right now we would certainly turn it over to you for 
any oral statements you would like to make.
    General Stewart, welcome.

STATEMENT OF LTGEN VINCENT R. STEWART, USMC, DIRECTOR, DEFENSE 
INTELLIGENCE AGENCY; ACCOMPANIED BY LT GEN WILLIAM C. MAYVILLE, 
USA, DIRECTOR FOR OPERATIONS, J-3, THE JOINT STAFF, AND MARK S. 
  CHANDLER, ACTING DIRECTOR FOR INTELLIGENCE, J-2, THE JOINT 
                             STAFF

    General Stewart. Thank you, sir.
    Good morning, Chairman Thornberry, Congresswoman Davis, 
distinguished members of the committee. Thank you for this 
opportunity to testify and for your continued support to the 
dedicated intelligence professionals of the Defense 
Intelligence Agency [DIA]. I am honored to serve as their 
director and to represent them at this hearing.
    I am also pleased to be joined today by Lieutenant General 
William Mayville, Director of Operations at the Joint Staff, 
and Mr. Mark Chandler, Acting Director of Intelligence for the 
Joint Staff.
    Mr. Chairman, the global security environment is the most 
challenging of our lifetime, a confluence of political, 
military, social, and technological developments which, taken 
in aggregate, have created security challenges more diverse and 
complex than any we have ever experienced. Our challenges range 
from highly capable, near-peer competitors to empowered 
individuals with nefarious intentions.
    Increasing demands, coupled with today's challenging fiscal 
environment, have stressed our defense and intelligence 
establishments and forced us to accept greater risk. This 
strategic environment will be with us for some time, and the 
threats' increasing scope, volatility, and complexity have 
become the new normal.
    Your DIA focuses on a myriad of threats, actors, and 
challenges, as noted in our written statement to the committee. 
I will highlight three of our priorities in my oral remarks.
    One, capable military competitors. Russian military 
activity, for example, is at historically high levels. Moscow 
is pursuing aggressive foreign and defense policies, including 
conducting destabilizing operations in the Ukraine, conducting 
a record number of out-of-area naval operations, and increasing 
its long-range aviation patrols.
    In addition, Beijing is focused on building a modern 
military capable of achieving success on the 21st-century 
battlefield and advancing its core interests, which include 
maintaining its sovereignty, protecting its territorial 
integrity, and projecting its regional influence.
    Two, an increase in vulnerable and ungoverned territory due 
to the erosion of moderate and secular Islamic states.
    While coalition strikes have degraded ISIL's ability to 
operate openly in Iraq and Syria, the group retains the ability 
to conduct limited offensive operations and is seeking to 
expand its presence and influence beyond these two countries.
    Governments in countries such as Egypt, Algeria, Jordan, 
and Lebanon are under stress from a variety of sources, thereby 
reducing their capability, as a region, to confront the threat 
posed by violent extremists. The breakdown of order of Syria, 
Iraq, Yemen, Libya, and northern Nigeria are fertile spawning 
grounds for the growth of terrorist organizations that can pose 
a significant threat to the U.S. homeland and our allies.
    Moreover, Al Qaeda core leaders and followers retain 
transnational-attack capability and will seek to use its 
remaining personnel to target Western interests in South Asia 
and worldwide.
    Three, malign actors seeking to challenge the U.S. and our 
allies in space and cyber domains.
    China and Russia increasingly recognize the strategic value 
of space and are focusing on diminishing our advantage. Both 
countries are conducting anti-satellite research and developing 
anti-satellite weapons with the intent of denying the U.S. the 
use of space in the event of conflict.
    For the Department of Defense, the cyber threat is 
particularly alarming because of the interconnected nature of 
our military weapons, communications, and networks. At low 
cost, with limited technical expertise, our adversaries have 
the potential to cause severe damage and disruption to U.S. 
systems, leaving little or no footprint behind.
    Finally, the exponential growth of communications; both 
mobile and social media have the potential to magnify 
international crises and shorten our already compressed 
decisionmaking cycle.
    In closing, I would be remiss if I did not note my concern 
about the impacts of sequestration on DIA and other members of 
the military intelligence community. The demand signal for more 
intelligence from our consumers, including the Congress, has 
never been greater. Sequestration and the support to crisis 
operations around the globe has forced us to accept risk in 
important areas that will have a direct and lasting impact on 
our ability to provide high-quality, nuanced intelligence 
required by policymakers and warfighters. I fear that the true 
cost of these difficult choices today may be paid on the 
battlefield of the future.
    Mr. Chairman, thank you again for this opportunity. We look 
forward to answering the questions of the committee.
    [The prepared statement of General Stewart can be found in 
the Appendix on page 40.]
    The Chairman. Thank you.
    Who is next?
    You all do not have oral statements that you are going to 
make?
    Mr. Chandler. That is correct, sir.
    The Chairman. Okay. Good. Thank you.
    General, let me just ask one preliminary question; then I 
want to get to my colleagues, who obviously have a lot of 
things on their minds.
    For some time, I have cited this book, ``America's First 
Battles,'' where the editors write that ``the record of 
Americans' ability to predict the nature of the next war, not 
to mention its causes, location, time, adversaries, and allies, 
has been uniformly dismal.''
    I think General Dempsey has said we have a 100 percent 
record of getting it right zero percent of the time, of who we 
are going to fight in our next war.
    So do you agree that that is kind of the history of things, 
we are not very good at predicting? And, secondly, would you 
amplify a little bit about how resources affect DIA's ability 
to gather intelligence and help us be prepared for whatever 
threat may be coming next?
    General Stewart. Congressman, I think historically the 
community has done a fairly decent job of predicting, in the 
past, crisis. I think that is getting more complex. I think the 
ability to cover the globe with the intelligence capability of 
either the Department or our partners is making it very 
difficult to see the world, see it in a timely manner, and 
deliver, convincingly, the argument that says there is a crisis 
looming.
    I think it is also complicated by social media and the 
current use of media around the globe. Many times, what we can 
in fact detect is, does it give sufficient warning across the 
globe?
    So our ability to warn is being reduced. Our ability to 
influence the action compellingly is being reduced. And I don't 
see it getting any easier, quite frankly.
    The Chairman. Okay.
    General Mayville, let me ask you briefly, from a consumer-
of-intelligence perspective, just give us, if you will, an 
overview of the challenges you face in your job as the J-3 in 
the sort of security environment we are in now.
    General Mayville. Thank you, sir.
    First off, it is important to remember that every one of 
our adversaries studies us. So, as we evolve and prepare, they 
take close lessons of our last fight and they look for 
indications of how we will fight tomorrow. This is dynamic. So 
one of the challenges is we always come up against adversaries 
that are well-prepared against us.
    Intelligence typically falls down, at least initially, in 
the last 300 meters of the fight, the tactical fight. I think 
we are very good at broad, strategic directions. We get a sense 
of operationally what is in the art of the possible. And 
indications and warnings vary, but, by and large, I think we 
have a general sense of the trajectory of how things are going. 
Where we typically suffer is understanding the last 300 meters.
    And that requires that we have an adaptive force, a force 
that is well-versed in a wide range of capabilities. But we 
have leaders that have been developed so that we can shift and 
adapt to the environment that we have. I saw that in the 
initial steps of the OIF [Operation Iraqi Freedom], when we 
came in focused against Republican Guard divisions, very much 
trained for that type of fight, and literally overnight, the 
nature of the fight changed on us, and we had a different fight 
on our hands. And what you saw over the last decade or so was 
an adaptive force that figured it out.
    I would say that one of the challenges we have, 
particularly with non-state actors, is the demand for 
intelligence is insatiable. It is, in some ways, more complex 
to try to figure out what is going on. So many other factors 
impact what your adversary is doing outside just--the 
traditional military lines of operation. What is going on 
inside the communities? What is going on inside the tribal 
constructs? Where are their sources of power? How are they 
getting that together?
    And the intelligence to pull all that together, one, it 
puts great demands on our intelligence agencies, and two, it is 
an insatiable demand that is out there. And it is very, very 
difficult for tactical commanders on the ground to have the 
kind of understanding that they want. And they will always put 
a demand on whatever intelligence is available to them.
    The Chairman. Okay.
    Well, I suspect other members will want to explore further 
how well we have done at predicting state actors, like Russia 
and Ukraine, and how well we did in predicting ISIS [Islamic 
State of Iraq and Syria] and a variety of other challenges.
    But I will yield to Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And perhaps this is just following up somewhat. I think in 
even in a whole-of-government approach, because one of the 
things that we know is that we don't always understand what is 
going on--on the ground, of course. And I am wondering if you 
could speak to, I guess, where, in fact, we approach things in 
a way that we least understand.
    And as an example, the Shia-Sunni divide. And do we expect 
that a Shia government can incorporate, can be inclusive when 
it comes to the region and the Sunnis there, as well? And there 
are other examples like that.
    Are those some of the ways in which we really have great 
difficulty trying to understand the dynamics in the region?
    General Stewart. I think part of the challenge, our 
military intelligence was designed for a different type of 
adversary--large formations constructed to be easily seen and 
defined.
    The conflict we face now is much more diffused. 
Understanding cultures and understanding tribal interactions 
and understanding really the deep intent behind some of these 
extremist ideologies is hard to define with the existing 
system.
    You need probably a much more robust human intelligence 
capability to get after some of the intentions and the culture 
and the ideology differences in order to be really effective. 
We are really good at finding large formations, targeting large 
formations, and watching those movements, but some of the 
nuances that come with individuals and leadership intentions 
become really, really difficult.
    Mrs. Davis. Mr. Chandler, did you want to----
    Mr. Chandler. Ma'am, I will echo General Stewart's 
comments, when you look at the cultural intelligence aspects of 
this and understanding the societies and the interaction 
between the societies.
    And another aspect to go into is the historical nature of 
some of these conflicts and the tribal alliances that you start 
to look at, not just in a Sunni-Shia but, as that spreads out, 
around the globe. The societies that we are looking at, and as 
General Mayville alluded to, looking deeper into some of the 
threats and some of the challenges we face, go much beyond 
state actors, go much beyond what we see in a Western society. 
And that is where we have to take our intelligence capabilities 
and look on a different level and in a different contextual 
framework.
    Mrs. Davis. Are we positioned to do that?
    Mr. Chandler. Ma'am, I think we are. I think it is a 
process that we go through.
    As General Stewart said, we are great at finding big 
formations, targeting them, and then turning that over to our 
operational elements. However, we have a good core of young 
intelligence professionals, and we have to nuance this. We have 
to work our way through an understanding of how we take the 
large formations, understanding tribal societies and elements 
and the changes, and look at history. We cannot ignore history, 
and bring that core of intelligence professionals up.
    It's not an all technological advantage that we can utilize 
here; it is an understanding. And I think we have a good core 
of professionals that are starting to work their way through 
that. So we have the core capability, yes, ma'am.
    Mrs. Davis. Thank you.
    I am going to yield back, Mr. Chairman.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Mr. Chairman, first of all, I want to thank you 
for having this hearing. It is so important that we discuss 
these threats and bring them to the country's attention.
    And, to each of you gentlemen, thank you for the service 
that you render to our country, and thank you for being here 
today. And one of the things that we benefit so much from you 
being here for is that you are able to give us not just the 
Department's view but you are able to give us your best 
professional military judgment. And that is what I am asking 
for now.
    And, General, for you, here is the dilemma that I have, is, 
as I listen to you, it obviously concerns me and scares me, as 
we see all of these enormous threats that are around the world. 
And yet I look at what we have been doing as a nation for the 
last 6 years. We cut $780 billion dollars out of national 
defense before sequestration even got there, and then we got 
another $500 billion with sequestration. And it looks like 
those curve lines for our national defense are going down and 
these threats are just proliferating around the globe.
    And so the question I would ask of you today, on your best 
professional military judgment is: Did the Pentagon just miss 
all of this that was happening, or did we just ignore it?
    General Stewart. Congressman, I think most of the service 
chiefs have been on the record as saying that the requirements 
continue to go up while resources continue to go down----
    Mr. Forbes. But, General, let me just, if I can--because I 
respect you so much. They did not. On that $787 billion 
dollars, I pleaded with them, ``Tell us what we need,'' and 
they continued to come up, not sequestration, but up until 
sequestration, they kept saying, we are good to go with this.
    And we just need to learn, maybe from our mistake, and this 
is our opportunity to do it. Looking back in hindsight, not 
putting fingers on anybody, did we make a mistake by making all 
those drastic cuts, when we now see all of these huge threats 
around the world?
    General Stewart. I will offer only this, Congressman. The 
threat, the requirements for the intelligence community is 
growing. The resources are going down. The risk is getting 
greater. At some point, there are things that we will have to 
say we cannot do.
    That's where we are today. At some point, I will have to 
come back and identify the things, one through X, that we can 
do, and everything else will have to be risk. And I'm not 
comfortable at all with that posture.
    Mr. Forbes. General Mayville, in your estimation, your best 
professional military judgment, looking at it now with 
hindsight, did we make mistakes by making that many cuts that 
we did, when we look at these threats that are out there? And 
did we miss these things, or did we just ignore them?
    General Mayville. I won't look back, Congressman, but I 
will look forward. I think that we, and what I saw in testimony 
from the service chiefs is a broad agreement that we have the 
military we need to meet today's requirements, that we are at 
minimally acceptable levels for what is required today.
    If you are asking me, what are the trend lines for the 
future, my concern is that we continue to see new threats, 
threats that have studied us, both state and non-state actors. 
And I am concerned about our ability to posture ourselves to 
meet tomorrow's threats.
    I think we have the best military--I know we have the best 
military in the world, and I am confident that we can meet all 
of the requirements our Nation gives us today. I am, however, 
concerned about the future.
    Mr. Forbes. And, Mr. Chairman, I would just go on the 
record as saying, because I know you have been preaching this 
same sermon, but, for the last several years, I have just seen 
cut after cut after cut to national defense. And now we come in 
today and we see these enormous risks around the globe. And I 
think, at some point in time, we need to say enough is enough 
and begin getting those curve lines turned back in the right 
direction.
    And, with that, Mr. Chairman, I will yield back.
    The Chairman. I thank the gentleman.
    Mr. Walz.
    Mr. Walz. I pass.
    The Chairman. Mr. Takai.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chandler, you have made the statement that we cannot 
ignore history. And I just hope that we can learn from----
    The Chairman. Excuse me. I am sorry, Mr. Scott. It is this 
Texas accent that people are having trouble with. I want to 
stay on this side of the aisle, and then I will come back. I--
--
    Mr. Scott. I understand.
    The Chairman. Yeah. No, I said Mr. Takai.
    Mr. Takai. Thank you, Mr. Chairman.
    General Stewart, with all the focus on the Middle East, can 
we shift gears and tell me what currently is the biggest threat 
to stability in the Asia-Pacific area?
    General Stewart. There are a number of things in the Asia-
Pacific area that causes me concern.
    North Korea's destabilizing action is cause for concern. 
They continue to modernize their military. They continue to 
seek nuclear capability. That is very destabilizing on the 
peninsula.
    We also see extended operations by the Chinese, as they 
modernize their military forces and extend their reach into 
areas such as the South China Sea. Those are destabilizing 
factors.
    Those are probably the two biggest ones in the region.
    Mr. Takai. Okay. Thank you.
    General Mayville, how does our current force posture in the 
Pacific align with these responding threats in the Pacific?
    General Mayville. In the Pacific, we want to make sure that 
we have--and we do have--the requisite forces to deter a DPRK 
[Democratic People's Republic of Korea] aggression. We want to 
make sure that we can dissuade them of the use of nuclear 
capabilities. We want to be present in meaningful numbers to 
assure our allies of our U.S. commitment and our reliability. 
We want to have a presence in the region, and we do have a 
presence in the region, sufficient to preserve the freedom of 
navigation through international laws and norms. And we want to 
have the ability to sustain our presence and be ready not just 
for what is required today but to be postured to respond to a 
contingency tomorrow.
    Mr. Takai. Thank you.
    So would reductions in the U.S. force posture in the Asia-
Pacific exacerbate the current security challenges that we 
have?
    General Mayville. I am not aware of any reductions, planned 
reductions, within the Department for our forces in the Asia-
Pacific. But I think that if what you are referring to is how 
might the lack of resources impact our current capabilities and 
presence, it would be significant.
    Mr. Takai. Thank you.
    Maybe more specifically, there is some discussions 
regarding possible force reductions on the Army side, in Hawaii 
specifically. Can you talk about those reductions affecting the 
security challenges in the Asia-Pacific area?
    General Mayville. I apologize. I can't speak to an Army-
specific decision, as, again, I am unaware. But I will take 
that back and make sure we get you a response from the Army on 
that.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Takai. Okay. Thank you.
    And are any countries in a position to prevent the United 
States from effectively operating in the Western Pacific?
    Either of you can answer that.
    General Stewart. China has done extensive training to 
counter U.S. forces in the region. They have sophisticated air 
and missile and space defense capabilities. I think that they 
are designing their forces to challenge military presence of 
the United States in the region. They have fairly sophisticated 
missile systems that can counter a number of our platforms.
    And we would certainly welcome an opportunity to talk a 
little bit more about this in closed session, but I think both 
China's training and some of their weapons capabilities are a 
significant threat to our forces.
    Mr. Takai. Thank you.
    One last question. Do you think we are losing, you are 
speaking about China. What about technology? Do you think we 
are losing our technological edge to China?
    General Stewart. I do not believe we are losing our 
technological edge to China, but I do believe China has a 
concerted effort to, as much as possible, gather intellectual 
property to close the gap between our technological edge and 
their capability. I do not believe, at this point, that we are 
losing our technological edge, but it is at risk based on some 
of their cyber activities.
    Mr. Takai. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    General Stewart, if you don't mind, if you would pull your 
microphone closer to your mouth. Especially when you turn your 
head, it gets a little hard to hear up here in the 
stratosphere. I would appreciate it.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank each of you for being here today.
    And as we are talking about threats to the American people 
and security around the world, I want to join with Congressman 
Forbes. I believe that we are at the most dangerous period 
since 1939 in the instability around the world, the threats to 
the American people.
    And he has already brought up, Congressman Forbes, that 
there has been projected a trillion dollars in reductions in 
our defense capability. The result of that is that we will have 
the smallest Army, and the American people need to know this, 
the smallest Army since 1939, the smallest Navy since 1916, the 
smallest Air Force since it was created in 1947.
    This is in contravention to something that we learned 
during the Cold War: Peace through strength. By having a strong 
military, the American military produced a situation with the 
broadest spread of democracy in the history of the world. 
Dozens of countries became free because we had a strong 
national defense. But the consequence of what I see going on 
today, under this administration, is putting the American 
people at risk.
    An additional risk is cyber warfare. And for each of you, 
how would you characterize the disruptive and destructive cyber 
threats to the Department of Defense network from state actors 
and from terrorist organizations such as ISIL and Al Qaeda?
    General Mayville.
    General Mayville. Thank you, Congressman.
    To your point, I think a smaller force puts a greater 
demand on the force you have. I think it also puts a demand on 
their families. It will force us to have a greater reliance on 
our allies and partners, and it will cause us to make tough 
decisions in terms of operational priorities.
    On cyber and the ability of the Department of Defense to 
defend its networks, I am very, very confident in our abilities 
to defend our network. It is an area that we look at every day. 
I am well aware of the intrusions, or attempts at intrusions, 
and have confidence in our systems, and in our training, as 
well as in Cyber Command, to address the current threats.
    General Stewart. Our ability to defend the networks is 
pretty strong, but the threat is growing from a number of 
nation-states: Russia, China, Iran.
    The cost of entry in cyberspace operations is pretty low. 
It doesn't take a really high-tech capability to do damage to 
our networks. And you only have to get it right once. So the 
threat is real from a wide range of actors, nation-states and 
non-nation-states.
    So the challenge, I think, going forward for us is, how do 
you see the threat environment more discretely? Because this is 
really a tough space. We have built tremendous capabilities to 
defend our network and to maybe even conduct offensive 
operations. What we have not done, I believe, is built the 
intelligence capability to see the threat early enough, warn 
early enough, rather than reacting to an attack on our network.
    Also, the intelligence required to do anything offensively 
is pretty exquisite. And so I don't know that we have invested 
sufficiently in that capability to do cyberspace operation in 
its fullest extent.
    Mr. Chandler. I would just echo the general's comments on 
being able to identify the threat early enough based on the 
complexities of the cyber environment. That is what we have to 
look at into the future and be able to identify that. We have a 
great cyber capability within the Department of Defense, but 
the problem is identifying those threats to the networks early 
enough.
    Mr. Wilson. And I have a real concern, too, of adversaries 
coming into our systems and determining the technology we have 
and replicating it to match whatever defensive capabilities we 
have.
    And, General Mayville, I appreciate your comments relative 
to working with our allies, but, due to economic stagnation 
that is existent in many countries around the world, 
particularly allies to the United States and Europe, there is a 
shift, where the military budgets are extraordinarily reduced 
to virtually nonexistence.
    And so I am very concerned at the thought that we might be 
counting on countries that, actually, their view is, if not 
America, who? And so it is not them. And so I look forward to 
working with you to try to help work together.
    Thank you very much.
    The Chairman. Thank you.
    Mr. Ashford.
    Mr. Ashford. Pass.
    The Chairman. You pass?
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    And, gentlemen, thank you very much for your testimony here 
this morning and your service to the country.
    Having spent some time in the Department of Defense myself, 
I understand that the strength of our Nation's military is 
about our capabilities. And there is not always a strict 
correlation between the strength of a military and the size of 
the budget or the number of personnel. As a platoon commander 
in Iraq, there were times when I would have gladly traded 
another 40-man platoon for one ISR [intelligence, surveillance, 
and reconnaissance] feed.
    And so the point is we really have to understand as best we 
can what the threats are going forward. And I am relatively new 
to this committee, but it strikes me that much of the testimony 
we have heard just over the past few weeks has been focused on 
Russia and China. Now, hearing you describe your own 
capabilities at the DIA, you note that you are very good, 
really good, at finding large formations and big adversaries 
but, also, that many of today's threats are more diverse, 
dispersed, and difficult to understand.
    My question is, looking very broadly and looking long-term, 
how much do you believe that our focus on Russia and China is a 
product of the defense intelligence establishment we have 
built, designed to focus on those larger adversaries, versus a 
very conscious balance of the threats from those larger 
adversaries and the terrorist organizations and other dispersed 
threats that we see around the globe today?
    General Stewart. While some of the more dispersed threats 
can do us harm, Russia and China could be our most existential 
threat. And so the focus is probably appropriate, to spend time 
looking and understanding Russian and Chinese capability 
because they pose the gravest threat to our Nation.
    Striking the right balance, though, so that we can cover 
down on the globe, really, from destabilizing influence, 
ungoverned spaces across the globe, becomes increasingly 
challenging.
    So I think we are postured about as good as the force that 
we have today. I would like to see us understand ISIL and Syria 
and Libya and all those other countries in a lot greater 
detail, but those are probably some areas we will take risk 
just because, although they can do us harm, they don't pose an 
existential threat to the United States.
    Mr. Moulton. That is very helpful. Thank you.
    I would like to shift for a moment to Iraq, in particular, 
and to your written testimony. You note that defeats of the ISF 
[Iraqi Security Forces] and the collapse of multiple [Iraqi] 
army divisions highlight large-scale institutional deficiencies 
within the ISF.
    I would like your opinion on how much it is the 
institutional deficiencies within the ISF that are at question 
here or deficiencies within the GOI, the Government of Iraq, 
that have led to a lack of trust and fundamental corruption 
within the armed services of Iraq.
    General Stewart. I think it may be a little bit of both. I 
think the forces are not as well trained, not as well equipped, 
not as well organized, not well paid, and that stems right from 
the senior leadership and the Government of Iraq. So I think 
that it is a little bit of both.
    General Mayville. There are multiple lines of effort to 
counter the threat posed by ISIL in Iraq and Syria. The 
preponderance of those lines of efforts, however, fall outside 
the military domains. And I think it is very, very important 
that the pace of operations be such that the military lines of 
operation, the military lines of effort, don't get out in front 
of the political lines of effort that must be achieved in order 
to get an enduring solution here.
    And I think that, as you think about this conflict and what 
is it going to take to really resolve it, you will find that 
the finishing solutions exist outside the military tool bag, if 
you will, and that the management of this campaign and the pace 
of this campaign has got to be one where what we can achieve 
militarily does not get out in front of what must be achieved 
politically.
    And I will leave it there.
    Mr. Moulton. Yes, sir.
    General Stewart. Can I add also, one of the things that 
really concerns me going forward, if the Shia forces believe 
that they can control ISIL without reconciliation with the 
Sunnis, that could cause some additional issues. So that will 
not drive towards reconciliation.
    The Chairman. Time of the gentleman has expired.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Stewart, can you say, over here. Can you say 
anything about how Russia, in this venue, is using their Open 
Skies flights over the United States? And as the principal 
intelligence officer for the Secretary of Defense, can you tell 
us if that concerns you? And what are those concerns?
    General Stewart. The Open Skies construct was designed for 
a different era. I am very concerned about how it is applied 
today. And I would love to talk about that in closed hearing.
    Mr. Rogers. Okay.
    Staying with Russia, do you have believe or do you have an 
assessment as to whether Russia is in any way making moves to 
come back into compliance with the INF [Intermediate-Range 
Nuclear Forces] Treaty?
    General Stewart. There have been some Russian officials who 
have talked about whether the INF Treaty is still valid today. 
And there are some things that they are doing that are pushing 
the envelope. And, again, I regret to say I can talk more about 
this in closed session. But there have been some officials who 
have talked about the value of the INF Treaty going forward.
    Mr. Rogers. Yeah. I am one of those officials, you know. If 
we are the only team that is sticking to the treaty, then I 
don't know why we are sticking with the treaty, since they are 
flagrantly violating it.
    But I would love to visit this subject with you in private. 
And I understand that in this venue we can't talk about it 
explicitly, but I think it is important for the record for us 
to note that Russia is in violation of the INF Treaty and 
making no moves to come back into compliance.
    With that, I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman, and thank you for the 
opportunity to have this panel. For those new members, it has 
been very educational, so I very much appreciate it.
    And thank you, gentlemen, for being here.
    Gentlemen, this committee has been exploring acquisition 
reform to ensure the military has the best possible equipment 
for the mission at the best possible cost.
    General Stewart, you mentioned that the conflict is more 
diffused; it is a very different conflict now. What are your 
thoughts about how we best approach reform while ensuring the 
best capabilities to respond to these threats moving forward?
    General Stewart. I am probably going to have to come back 
and follow up on this. I have asked the folks to look at ways 
that the intelligence community can be more interactive with 
the acquisition community. So, as the environment changes, how 
do we shape acquisition decisions throughout the entire process 
of the acquisition cycle and to be able to do that in a much 
more timely manner than we currently do today.
    So I have some folks looking at that, and if you would 
allow me, I will come back and talk about how we might do this 
a little bit more efficiently than we do today. Because I don't 
think the system currently provides sufficient intelligence to 
shape the acquisition decisions and then during the process to 
adjust acquisition decisions as the environment changes.
    So we are going to take a good, hard look at that. So if 
you will allow me, I will come back and talk about that in a 
separate session.
    Mr. Aguilar. Sure. Thank you very much.
    I will yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    General Stewart, I appreciate that, because we will be very 
interested to get your input on what we can do together to 
improve the agility of the intelligence community, especially 
in the kind of world that we are living in. So I appreciate 
very much what you have asked your folks to do.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here, and thank your 
families for supporting your efforts. And based on General 
Mayville's right sleeve, I suspect those efforts have been 
quite considerable, to support you in your careers. I 
appreciate that.
    General Stewart, getting back to Russia, I am concerned 
about Putin and his intentions. Obviously, everyone is. Can you 
talk to us about the impact that these lower oil prices are 
having on his ability to maintain his position, the elites in 
the country, as to what their perspectives are on keeping him 
in place? And are there any particular threats to him?
    And then do you see him accelerating his mischief in 
eastern Russia to Eastern Europe, excuse me, to help his 
countrymen rally to the flag while he tries to do the guns-and-
butter thing?
    General Stewart. Congressman, Russian military 
modernization remains a strategic priority of the Russian 
government. In spite of oil prices, in spite of the ruble 
value, in spite of the sanctions, that remains a strategic 
priority. And I don't see any time in the near term that the 
effects of the sanctions or effect of the economy will change 
their desire to build strong strategic forces that will counter 
our efforts across the globe.
    Mr. Conaway. I guess, General Stewart, what I am asking is, 
can you get inside Putin's head? Can he maintain control in 
spite of those efforts?
    He told his countrymen within the last 10 days, Russians 
will eat less. Can we do that kind of collection that allows us 
to try to foretell how he is going to help create the bogeyman 
that will either be NATO [North Atlantic Treaty Organization] 
or us to keep his folks focused on Putin protecting them from 
the rest of the world?
    General Stewart. I think he has already done that. I think 
he has made the West and NATO the bogeyman. And I think 
Russians will suffer--the Russian people will suffer far more 
than the Russian elites will, but it is probably something that 
Putin is comfortable with.
    Mr. Conaway. Okay.
    General Stewart. And if you would like to talk about 
Ukraine, I think you asked about Ukraine also?
    Mr. Conaway. About what?
    General Stewart. Or Eastern Europe? I will stop----
    Mr. Conaway. Well, yeah. The Ukraine is a good example of 
Mr. Wilson mentioned 1939, that Stalin used the same technique.
    Let's switch gears a little bit. Taliban Five. Can you talk 
to us about the DIA's role in the reversal of the White House 
position they should be detained to sending them Qatar? And was 
DIA consulted about what that continued detention in Qatar 
might look like?
    General Stewart. DIA participates on the periphery to 
observe detainees who are transferred with conditions. We know 
that over the last 4 or 5 years, about 18 percent of detainees 
have gone back into business, confirmed to have gone back into 
business. About 11 percent are suspected of having gone back 
into business.
    So if those numbers translate, of the five that were 
transferred, probably one in five could be expected to go back 
into the business.
    Mr. Conaway. Yeah. Well, given that they are, I guess, 
going to be set free sometime, May-June timeframe, I guess to 
go back to Afghanistan if they can convince their families to 
go back to living in mud huts versus the palaces they are 
living in now, what would DIA's role be in protecting the 
10,000 or so U.S. troops we will have from these 5--either 1, 
2, 3, or all 5 of them--working to hurt Americans?
    General Stewart. So we continue to provide tactical 
intelligence support. We continue to look at monitoring the 
number of sources that would tell us whether these individuals 
have gone back into business. Directly, though, besides 
notifying folks that these terrorists have gone back into 
business, there is very little at this point the DIA could do--
--
    Mr. Conaway. Yeah.
    General Stewart [continuing]. Besides warning of their 
continued operations.
    Mr. Conaway. I know you weren't the head of DIA at the 
time, but was DIA consulted on the potential, the transfer of 
these five in exchange for Sergeant Bergdahl?
    General Stewart. I would have to get back to you. I do not 
know the answer to that one.
    Mr. Conaway. Okay.
    General Stewart. Let me take that one back, sir.
    Mr. Conaway. All right.
    [The information referred to can be found in the Appendix 
on page 69.]
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Like you, I can't wait to get to the 
classified section.
    We had a discussion here a moment ago about sequestration. 
The President's budget blows through sequestration. The 
question will be ours, whether we accept that, both on the 
discretionary as well as on the military side. So the real 
question is not to the military; it is to us, as to whether we 
are willing to accept a level higher than the Budget Control 
Act.
    A question, I think this will probably have to be in 
classified. The DIA, the CIA [Central Intelligence Agency], the 
NSA [National Security Agency] coordination, cooperation, and 
the rest. If you would like to comment now, and maybe we will 
just save it until later. That will be my question in 
classified.
    General Stewart. The level of cooperation between the 
agencies?
    Mr. Garamendi. Yes.
    General Stewart. Sir, I have been doing this for about 30 
years now; I have never seen better cooperation.
    And on the battlefield the cooperation is excellent. And 
even here in Washington, which is where the competition really 
usually begins, the cooperation and the support for each other 
is unprecedented, in my opinion. And I have been watching this 
closely for the last 12 years I have been in the DC area. Very, 
very good relationship among us all.
    Mr. Garamendi. I will let it go at that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    General Mayville, during the height of the Iraq and 
Afghanistan wars in 2008, the Army had 48 Active Duty brigade 
combat teams [BCT]. By the end of the year, we will have 32 
BCTs, based on the ongoing Army 2020 process. And if the Army 
fully executes additional reductions over the next few years, 
we may end up with between 24 to 26 BCTs.
    I am concerned that the Army end strength we are building 
today and for tomorrow will not be able to meet the various 
threats we are discussing today.
    So my question is, if the Active Duty Army was stressed to 
fulfill its missions in Iraq and Afghanistan with 48 BCTs, 
could we fulfill any combat mission in Iraq and Afghanistan 
today, let alone against some of the other worldwide threats we 
are discussing today? And what will be the capability with an 
Army of only 24 BCTs?
    General Mayville. Well, I would add to the scenario that 
you just laid out, sir. I would also say that, you know, one of 
the things that we have seen less of is less forward-stationing 
of the forces. And I think, with a reduced number, the 
challenge we will face is, how much of the force do you want 
forward, shaping and preventing, and how much of the force do 
you want maintaining the high levels of readiness to respond to 
contingencies? The challenge will be the balance and a sense of 
operational priorities.
    With regards to the situation that--the counter-ISIL 
mission that we have in Iraq and Syria today, that is a 
fundamentally different mission statement than the one that we 
had in the last 10 years under OIF. To that end, I think our 
strategy is sound. I think it is properly regionally focused. 
It's Iraq-first framework to get the Iraqi forces, get their 
feet underneath them through building partnership capacity. And 
that train, advise, and assist is the right way. Use of the air 
campaign has frozen the most immediate threat posed by ISIL 
forces.
    And I think that, as I said earlier, if I was to focus on 
one area of this campaign, it would be in the non-military 
lines of effort and the things that we need to do to get the 
diplomatic and the political outreach. Quite frankly, we need 
to see in Iraq political outreach that addresses the fact that 
some 20 million Sunnis are disfranchised with their government.
    Dr. Fleming. Well, I guess, let me approach it from another 
direction. Certainly, now that we have ISIS, or ISIL, something 
we didn't have before, they are--have become a threat around 
the world and could be a huge threat. We could see another 
severe attack on the U.S. We may have to go back again, redo 
the work against a major force.
    Do we have, with what we are going to end-strength with, 24 
to 26 BCTs, do we have what it takes to deal with that, perhaps 
to destroy ISIL, as the President has suggested, indicated he 
would like to do, and to be able to deal with other threats 
around the world unrelated to ISIL?
    General Mayville. To defeat ISIL, we are going to need the 
partners, and we are going to need a partner in the Government 
of Iraq, and we are going to need partners in the region, and 
we are going to need the help of the coalition. This is not one 
that we would want to put squarely on the back of the United 
States military.
    To that end, I think that the way we have resourced the 
fight, the phasing of our campaign plans is adequate. And, 
again, I point back to pace. I think that we can do a lot on 
the military lines of effort, but it cannot outpace what must 
be done politically.
    Dr. Fleming. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    General Stewart, you spoke briefly about your efforts, 
particularly in the Middle East, dealing with this Islamic 
extremist threat that we are seeing growing there. And I 
wondered if you could speak to how critical your assessments 
are and the intelligence that you are gathering regarding the 
intent behind this extremist ideology informing the strategy to 
defeat this enemy. And what is that motivation? What is that 
intent?
    General Stewart. I think ISIL, in this particular case, is 
a radical ideology that must be countered with a moderate 
ideology. I think they intend, if I were to try to ascribe 
intent, their intent is to destabilize large countries in the 
region, force Western countries to depart the region, and then, 
of course, as they have already stated, to create this Islamic 
state. It is based on a violent, extremist interpretation of 
Islam, and it is not, I would argue, common throughout the 
entire region.
    So if I were to map out what ISIL would love to do, ISIL 
would love to have the United States and Western countries out 
of the region and slowly pick apart those other moderate 
nations who would counter their radical ideology. And if they 
could do that, then they could have a fairly easy opportunity 
to create this state that they think is appropriate for the 
region.
    Ms. Gabbard. And what are the common elements that you find 
while much of the action has been occurring in Iraq and Syria, 
you listed a number of other countries in the Middle East. And 
we see what is happening in Libya, for example. What are the 
common elements that you see between these different actors, 
whether it be ISIL, Al Qaeda, AQAP [Al Qaeda in the Arabian 
Peninsula], Boko Haram? And the list goes on.
    General Stewart. Ungoverned states, weak government 
institution, economic instability, poverty.
    Ms. Gabbard. What are the, you are referring to the common 
elements between the different geographic locations----
    General Stewart. That is correct.
    Ms. Gabbard [continuing]. Or the common elements between 
these groups specifically?
    General Stewart. The common element really is just a 
radical approach ideology. I think that is the common element.
    ISIL can create, ``create'' in quotes, regions just by 
declaring that ISIL is in Libya. It doesn't have to be anything 
substantive; it just has to create the impression that it is 
there and it is a different force to offer to the people in 
that region.
    So I don't know that there is anything more common than 
just the very extreme approach, very violent, very strict 
interpretation of the religion, and finding opportunities in 
ungoverned spaces.
    Ms. Gabbard. I think it is important that we recognize this 
because as you are well aware, there is a debate right now 
about whether, about how this ideology, how this motivation 
must be identified in order to define our enemy, and in order 
to defeat this threat. And I think it is important as we look 
at dedication of resources, and strategy, and planning, that 
this identification of their motivation, of this radical 
Islamic ideology is made very distinctly, as we would with any 
other type of enemy.
    I know for the members here who have served in the military 
at one point or another, when we look at a basic thing like the 
five-paragraph Operations Order, when we look at the situation, 
we look at and examine our enemy. We look at what their 
capabilities are, and what their motivations are. And so as we 
look at this threat that exists both in the Middle East, and in 
countries in the West, that we recognize this and identify it 
clearly.
    Thank you. I yield back.
    The Chairman. If I can just say amen to what the gentlelady 
just said. As a matter of fact, we are going to have a hearing 
next week on this very topic, and I think it is very, very 
important.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, I appreciate you being here and your service to 
the country. And Mr. Chandler, I know you said that we cannot 
ignore history. I would certainly hope that we could learn from 
it as a country. And the Sunnis and the Shias have been in 
conflict, shall we say, since the seventh century. I find it 
hard to believe that a Judeo-Christian nation can step in and 
referee that conflict and that that fight won't just continue 
once the referee leaves. And I think that is one of the things 
that we continue to see.
    I want to speak with you briefly, though, about the U.S. 
involvement and the things that we do that perhaps create the 
vacuum that allow organizations like ISIL to expand. And if I 
could read from what you presented: ``In Libya, political 
instability and ongoing militia violence have worsened over the 
year, exacerbating conditions that have already made Libya an 
attractive terrorist safe haven. ISIL has increased its 
presence and influence in Libya, particularly in Darnah, where 
it has begun establishing Islamic institutions. Without a 
unified government and capable military, there is limited 
possibility of stability in the near-term.''
    People at the DOD and the White House made a decision to 
take Qadhafi out. And part of that decision included not 
putting U.S. troops on the ground to secure the weapons of 
Qadhafi. And now that we have removed him, we acknowledge that 
the situation is worse. Yet, we tried to do the same thing with 
Assad--the administration did. And in undermining Assad, it 
created a vacuum that in my opinion certainly allowed ISIL to 
grow in strength.
    While at the same time we are engaged in these activities 
that are close to or even neighboring Russia and China, we have 
Central and South America that we have basically lost focus on, 
if you will. And I would like you to speak to the issue of 
Russia and China and the inroads that they are making in our 
backyard with Latin America and South America, while we are 
focusing on these parts that are so far away from us, and their 
potential threats to the United States.
    General Stewart. Congressman, even before ISIL, Russia 
considered the Western Hemisphere a place that they could 
stage, get basing rights, and seek partners, if for nothing 
else, to curry votes in the United Nations. China also has done 
the same thing.
    So both for resources, and for partnership, and for 
influence, we see China and Russia expanding their reach, 
establishing cultural centers, establishing military bases 
that, to a lesser extent now than they have, certainly, Russia 
has in the past. It is for influence. It is for resources. It 
is for opportunities in the region. So that is not new as a 
result of ISIL, but it is ongoing.
    Mr. Scott. Would you agree that we have paid more attention 
to those parts of the world that are in China and Russia's 
backyard than we have to those parts that are in our backyard?
    General Stewart. I don't know that I would agree with that 
entirely.
    Mr. Scott. Well, I certainly respect your opinion.
    I would like to bring to the attention of the committee and 
other people one last statement in your presentation, 
``Speaking of Iran, the regime faces no insurmountable 
technical barriers to producing a nuclear weapon, making Iran's 
political will a central issue.'' And I think that is one of 
the reasons that we in the House have certainly tried to at 
least give the President the authority to bring more sanctions 
against Iran should they choose to go that path.
    If I could, one last question: Iran's, it has been reported 
that Iran has recently signed some type of agreement with 
Russia. Could you speak to that briefly?
    General Stewart. I saw recently that the Iranians and the 
Russians were having some conversations. I have not seen 
anything that suggests that they have signed a recent 
agreement.
    Mr. Scott. Thank you, sir.
    Thank you, gentlemen.
    Mr. Speaker, I yield the remainder of my time.
    The Chairman. I thank the gentleman.
    Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    And I wanted to ask the panel about the spread of terrorism 
on the continent of Africa. As was pointed out a little bit 
earlier, obviously, in northern Africa, and places like Libya 
where we have seen problems that are very well documented, and 
we know that there are starting to be some issues in other 
parts of Africa, and I wanted to ask you, what is your 
assessment of preventing the continent of Africa from going 
into the same level of disarray as so much of the Middle East 
seems to be in right now?
    General Stewart. Congressman, that is a really tough 
question because so many of the conditions that we talked about 
that allows extremist ideology to grow, exists on the 
continent; ungoverned spaces, weak central government, weak 
security forces, extreme poverty. Those create opportunities 
that are exploited by this extreme ideology.
    So there are a number of places across the continent. 
However, having said that, the African Union is starting to 
push back, and you are starting to see call for forces from 
moderate states on the continent to fight against those extreme 
ideologies. But the force alone, the military effort alone, 
will not stop this movement. It must be replaced by a moderate 
ideology with all of the other things that will keep that 
ideology from growing: Good governance, good security forces, 
good rule of law, all of those things that must be developed. 
Those are not military solutions, but they are critical to 
success if you are going to counter terrorism.
    Mr. Veasey. How much does it trouble you that a, take for 
instance a large country like Nigeria, that has resources, they 
have oil money, they do spend a lot of money on military 
resources, but yet, they have been unable to, you know, to 
quell or extinguish a force like Boko Haram. When you look 
right next door to Nigeria at a country like Chad that is 
smaller in population, smaller in resources, but yet they were 
able to push out Boko Haram out of their country in an area 
that they had recently taken over.
    What is your assessment of a, you know, you talk about 
disorganized governments, or governments where there is no 
stability, but a large government like Nigeria, is that 
troubling to you?
    General Stewart. It is troubling in that the lack of 
leadership, the lack of commitment to developing the military, 
the lack of equipping those forces, caused Nigeria some 
challenges in, especially in the northeast, to counter Boko 
Haram. If there is any good news, the oil wealth is to the 
south and they would have to fight a long way in order to get 
to that. I am not sure that is their objective. So capitalizing 
on the oil resources is a long way off.
    The other good news is that Chad, and Cameroon, and Niger, 
and other countries around the region, are starting to take on 
Boko Haram. So it is a violent, brutal movement, but it is at 
this point isolated to the northeast portion of Nigeria, and it 
is starting, we are starting to get some help from neighboring 
countries to counter that threat.
    Mr. Veasey. Do you think that there is some more potential 
to work with Nigeria to be able to extinguish Boko Haram, or do 
you think that the government there is not stable enough yet, 
or not honest enough yet to where we can be able to really work 
with them, to be able to get this situation more under control?
    As you know, there are many Members in Congress that are 
still, you know, concerned about, obviously, about the 
kidnapping of those girls, and the government's, I am not going 
to say unwillingness, but their inability to be able to, you 
know, have the intelligence and the military power to do 
something about that.
    General Stewart. I think there are elections that will go 
on the 14th of February and I think the results of the election 
will give us a better sense of who we have to work with and 
what we can do to help. So stay tuned for 14 February for the 
elections, and what else we might be able to do with a new 
government.
    We are concerned about the violence that might come with 
that election, quite frankly, and that will also shape what we 
can do in that country going forward.
    Mr. Veasey. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and I want to thank 
both generals for being here today and Mr. Chandler for your 
service to this country.
    And I know this is not of your creation, sequester. It is 
our creation. And I am obviously very concerned as, Mr. 
Thornberry is, in regards to how we move forward, because we 
know that the end strength of all of the services, but 
particularly the Army, at the end of this is going to put us in 
a very precarious situation. We also know that when we had, you 
know, a 500,000-man Army, we were stretched to the limit to try 
to fight in two different theaters where we wind up stretching 
the Army to 15-month deployments and, you know, stop-loss in 
regards to letting guys retire out that needed to retire.
    And so I worry about how we are going to go forward. Like I 
said, sequestration is not your making. It is ours, and it is 
our responsibility, I think, to overturn sequestration as it 
relates to the military in particular.
    But Lieutenant General Stewart, based upon where we are 
today with the dollars that we have, I mean, how, and maybe we 
can do this in a closed setting, how stretched are you to 
actually do all the things that we have talked about, and we 
have covered a litany of things from Africa, to Asia, you know, 
to Russia. How do we do that with the confines?
    General Stewart. Are you talking from an intelligence 
standpoint or from forces?
    Mr. Nugent. No, no, from an intelligence standpoint.
    General Stewart. Yes, sir, we are pretty stretched. Can we 
talk about that in closed session?
    Mr. Nugent. Absolutely.
    General Stewart. Yes, sir.
    Mr. Nugent. And I have other questions for the closed 
session.
    With that, I yield back my time.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I wanted to build on the Chairman's comments about the 
challenges that we have had in predicting the threats that we 
will face and the kinds of wars that we will fight, and add to 
that, that we also seem to be challenged in predicting the 
consequences of our military interventions, whether they are in 
Iraq, Libya, more recently. And I wanted to ask you, General 
Stewart, and General Mayville, and Mr. Chandler, how those 
challenges in the past inform how we approach military 
interventions going forward and the potential threats that 
those interventions will generate.
    General Stewart. I was trying to rack my brain for the 
quote about how difficult prediction is, but I couldn't come up 
with it. But it is hard work, and the environment continues to 
change, even as you make forecasts about what you think will 
happen.
    So it is a very dynamic environment that especially now, 
has so many variables, and so many second- and third-order 
effects. The challenge I think, and we talked about this with 
my team recently, we are all very interested in the current 
fight. And so there is an incredible demand from us to talk 
about what is going on in Syria, and all those things are 
important.
    But it peels away capability to look to the future, and so 
how we think about how we divide up the challenges from the 
current fight and allow organizations like DIA to really look 
deep, to think about what the world looks like 4 or 5 years 
from now, is one of the great challenges that I think I will 
face as the director.
    Because the insatiable demand for current intelligence robs 
us of the ability to look a little bit deeper and think about 
the second- or third-order effects of our current actions. So 
we are going to try to do this a little bit better going 
forward. I can't promise you that we will get it all right, but 
hopefully we won't get it all wrong going forward.
    Mr. O'Rourke. General Mayville, let me ask an additional 
question before you respond. Mr. Scott mentioned some of the 
vacuums our interventions unintentionally create, some of the 
problems that we are fighting today you can correlate to 
previous actions, military and otherwise, and decisions that we 
have made. How would you, how are you approaching those second- 
and third-order consequences in arming moderate opposition 
forces in Syria, potentially sending weapons and aid to 
Ukraine?
    General Mayville. The training and equipping of moderate 
Syrian opposition groups fits within a broader counter-ISIL 
strategy. And in that strategy, it is Iraq first, finding a 
partner, by that a political partner, not just Iraqi security 
forces, but a political partner that we can work with. While we 
do that, we want to take initial steps to allow Syrian 
opposition groups to defend themselves against ISIL.
    And we are just on the beginnings of that. There will be 
some bumps in the road. I think there will be some challenges 
as we move forward. I think the initial pace will be very 
deliberate. Maybe even the first numbers not particularly high, 
but I think there will be a certain amount of momentum. And I 
think as that evolves, we go back and look at where we are with 
the work we are doing to get the Government of Iraq and its 
military back up on its feet to look at the next phase, and I 
think you will find that the thinking on that is how do these 
two lines of operation complement each other.
    With regards to the Ukraine, I think first we have got to 
recognize that what Russia is doing in the Ukraine, first and 
foremost, represents a challenge to NATO, and we are members of 
NATO, and we want to look at how we can support NATO. We want 
to look at responding to this within the context of NATO.
    What is most important for us is that we maintain our 
ability to meet our Article 5 responsibilities. We will not 
allow that to be held at risk. And we need to look at what we 
can do to stiffen the confidence in us as a partner, as well as 
to assure our allies. Specifically, to what we can do in 
Ukraine, I think we need to look at a wider menu of options and 
explore that.
    Mr. O'Rourke. Mr. Chairman, I am out of time, but what I am 
really interested in knowing for the future is what potential 
threats are we generating by interventions in these two areas, 
Syria and Ukraine. But I will come back to you and maybe for 
the record get your response.
    Thank you, Mr. Chair.
    [The information referred to can be found in the Appendix 
on page 69.]
    The Chairman. Thank you.
    Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I wanted to address the threat from Russia specifically. 
When you think about the aggressive actions they have taken 
going back to 2008 with the invasion and occupation of South 
Ossetia, and of Abkhazia inside Georgia; cutting off of energy 
going back to the 1990s; cutting off energy to the Baltic 
States, and people suffering, and in fact, people dying because 
they don't have heat in the wintertime; cutting off energy to 
the Ukraine; threatening, you know, nuclear war in Poland 
because of a missile defense shield that had no offensive 
capability, but purely defensive; and of course, the invasion 
and occupation of Crimea.
    And now we hear that the Russians are claiming that 
international law allows them to put nuclear weapons--we know 
they are in violation of the Intermediate-Range Nuclear Forces 
Treaty that has been established by this administration, and 
now they are claiming that they have the authority to put 
nuclear weapons in Crimea.
    General Stewart, do you believe they have international law 
on their side when they put nuclear weapons in Crimea?
    General Stewart. No, Congressman, I do not.
    Mr. Bridenstine. And as far as the reaction from the United 
States when this occurs, if it hasn't already, and I would love 
to discuss this more in closed session, what is our reaction to 
that kind of activity?
    General Stewart. I would defer the answer to that question 
to our policymakers, sir.
    Mr. Bridenstine. Okay. Well, I look forward to getting an 
answer to that question, because that is a question that is 
going to be--Mr. Chandler, I see you smiling. Would you like to 
answer that?
    Mr. Chandler. No sir, I just agree with General Stewart on 
deferring that question to the policymakers.
    Mr. Bridenstine. Okay. Well, good. What I would like to say 
also, General Stewart, and I would like to commend you on the 
great testimony that you provided to Members of Congress, in 
particular, one line I think is important for every Member of 
this body to understand, which is you write that: ``Rapidly-
evolving commercial space technology will support the global 
pursuit of enhanced space and counter-space capabilities that 
may narrow the technological gap with the United States.''
    So when you think about Russia, they have launched into 
space devices that have not been registered with any 
international body. They are doing, you know, very 
sophisticated orbital maneuvers, potentially targeting, if you 
will, or at least moving in the direction of some of the space 
assets that would be important to the United States. The 
ability of our adversaries to take advantage of commercial 
capabilities I think is a concern for all of us. And I would 
also like to stress the fact that those commercial capabilities 
are available to us as well to the extent we take advantage of 
them.
    Would you like to expound on your statement about the 
commercial capabilities?
    General Stewart. I would offer only that both China and 
Russia have counter-space in their doctrine, and will use all 
of the available means to support a counter-space strategy. 
Beyond that, we probably got to talk in the classified session, 
sir.
    Mr. Bridenstine. Yes, and certainly I agree with that.
    And when we think about counter-space for people on this 
committee, as a Navy pilot I relied heavily on space. And 
ground warriors also rely heavily on space. When we lose space, 
we lose the ability to fight on land, on sea, and in the air. 
The enemies of our country have stated this publicly. That is 
why they are so aggressive in this area.
    And certainly, you go back to 2007, the Chinese have 
launched anti-satellite missiles that have, you know, targeted 
their own satellites, but created, you know, tens of thousands 
of pieces of debris that ultimately put at risk not only 
military assets, but also put at risk commercial assets.
    So if space is truly a place for commercial activity, we 
need to be clear about what proper behavior is as it relates to 
the international community, and not be rewarding that kind of 
behavior, especially when it comes to, you know, now we are 
going to be partnering with China and providing information to 
them so that their space assets don't hit the space debris that 
they themselves created.
    In essence, we could be potentially encouraging more bad 
behavior, and I think this is an area that we need to be very 
cognizant of going forward.
    So my time is expired, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony this morning. This 
question is for General Mayville and General Stewart. In your 
opening statement, General Stewart, you state, I quote, ``A 
confluence of global, political, military, social, and 
technological developments have created security challenges 
more diverse and complex than those we have experienced in our 
lifetimes.'' Much of today's testimony focuses upon what we do 
know.
    My question is related to what we don't know, but should. 
What do you think are the biggest gaps in our understanding of 
threats to our national security?
    General Stewart. Let me think about that one. I am 
hesitating just a little bit for a couple of different reasons. 
One, we have covered a pretty wide front when we talked about 
the threat. So we talked about existential threat with China 
and Russia, all the way through terrorism, and narco-terrorist 
capability in our statement. So the biggest gap is, is really 
just understanding them all enough, with enough exquisite 
detail to shape policy early enough.
    So we think we have got the scope of the threat about 
right. How we can do this in a more nuanced, more exquisite way 
and deliver it early enough for decisionmakers is probably the 
gap. And do it, as I mentioned earlier, in an environment where 
it is so dynamic, where events are changing constantly, where 
social media is shaping our policy because we can now transmit 
at a moment's notice around the globe on a whole host of social 
media devices.
    So it makes the decision space that we used to be able to 
give policymakers much shorter. And so the challenge is finding 
the key, you know that needle in the haystack, and doing it 
early enough, and getting out ahead of the social media today, 
the information space. So, I think that is probably where I 
would say the gap is. Finding the range of threats, I think we 
are pretty close.
    Ms. Stefanik. Great, thank you. General Mayville.
    General Mayville. So what is going on in the world? Well, 
we are seeing the emergence of not just violent, extreme 
organizations, but violent, extreme organizations within a much 
broader trans-regional framework. We are seeing global economic 
shifts. We are seeing shifts in regional power balances. We are 
seeing rising powers, the return of some geopolitical 
rivalries. There are clearly some new relationships that we 
need to develop, and the management of current client states is 
challenging.
    I am concerned that there are conflicts that on the surface 
don't appear to affect us, and that we somehow can ignore them. 
But if you ask me--and that is not true, I think we have to, 
there are some things that only we can do, and we are a global 
leader.
    But if you ask me what is it that I am most concerned 
about, I am concerned about our services' and our forces' 
ability, our military force, our joint force, their ability to 
have the wherewithal, the flexibility to manage the training, 
the readiness, and the modernization. And I am, it is perhaps, 
it is important to remember it is an All-Volunteer Force. And 
the stress and demands that we are placing on this force we 
should not take for granted.
    There are the soldiers, the sailors, the airmen, the 
marines, and their families. I think we are asking a lot of 
them, and it is very, very important that as we think about the 
future, a future that we will continue to not get right, that 
we need to make sure that we have given to the Department the 
flexibility it needs to manage the three major balls that we 
need to manage, the current contingencies, the training, the 
readiness, the force modernization, and being able to take care 
of people.
    And I think that we will continue to have the force we 
need. And I think our Nation will continue to be secure and we, 
your military, will be able to meet its security requirements.
    Ms. Stefanik. Thank you very much.
    I yield back.
    The Chairman. I thank the gentlelady.
    Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony today. I really 
appreciate it.
    I agree, I served 26 years in the military, that we live in 
a more complex and dangerous world than I have seen in my 
lifetime. So I think we are in agreement. Thanks for the 
breadth of the testimony. And you know, as I was in the 
military, we would see that often the intel and the forces 
would be focused usually CENTCOM [Central Command], PACOM 
[Pacific Command], EUCOM [European Command], but I live on the 
border, and you have some mentions of transnational criminal 
organizations [TCOs], the cartels, and the porous borders.
    And there is the opportunity, of course, for additional 
non-state actors to try and use that vulnerability as an access 
point for us. And again, usually the preponderance of your 
assets are not focused in that area, but geographically it is 
the closest to us for a potential threat to the homeland.
    So I was wondering if you could just comment on your 
assessment of the threat coming from Latin America, and up 
through the south, and what percentage, and maybe this answer 
is in the closed session, of your assets, your intel assets, 
are focused on the threats that might be emanating both from 
the TCOs and potential other non-state actors to take advantage 
of those vulnerabilities?
    General Stewart. Certainly, the number of capability we 
would probably have to talk about in closed session.
    But drug-traffickers is still a great focus, especially for 
the folks down at Southern Command and the folks in Texas. And 
so we provide support to those efforts. I think they would love 
to have more capability diverted to that effort. It is, 
although dangerous to our society, the drugs that are coming in 
through those narco-traffickers, I think it is viewed as 
somewhat of a lesser threat. I don't know that I agree with 
that ultimately.
    Ms. McSally. Nor do I, just for the record.
    General Stewart. And so we tend not to devote as much 
resources there. Violence is down in the region. We are 
concerned a little bit about elections coming up in Venezuela, 
and what that might mean in terms of violence and humanitarian 
efforts.
    Colombia has absolutely turned around over the last several 
years. Plan Colombia has been very effective, so there is less 
of that threat from the region. We don't see the same level of 
insurgency that we did just 10 years ago. So the real threat 
from Latin and Central America is the drug trafficking, narco-
traffickers, and we are invested a little bit, but probably not 
nearly as much as we should.
    Ms. McSally. Great. Thank you, sir. I appreciate it.
    And again, for those who do live on the southern border and 
the potential for violence, with the cartels trafficking 
literally onto their lands and through their property, that is 
a very real threat for us; but again, the potentiality that 
someone else would take advantage of that for a larger national 
security threat is something we are concerned about in southern 
Arizona.
    I want to transition to, I was part of the team standing up 
U.S. Africa Command and running our counterterrorism 
operations. And we were very limited on resources all the way 
around. And so in addition to the resource limitations, we were 
limited in the process for how, when we would find a bad guy, 
how we would be able to quickly go sensor to shooter, find, 
fix, finish, and again, this may be more for the closed-door 
session.
    But I do want to have a deeper conversation about, with the 
ungoverned spaces and the rise of terrorist organizations on 
that continent that pose a threat to us, again, I saw 
opportunities we had to take out some of these guys, but we 
were either limited by resources or by the process, which was 
too slow and painful. And we would miss opportunities; way too 
centralized.
    And we allowed a number of bad guys to continue to go about 
their business and train additional terrorists as we watched 
that happen. So I am deeply concerned about that. And I don't 
know if you can comment on it, General Mayville, if any of that 
has changed? And I look forward to talking more in the closed 
session.
    General Mayville. Much of your question, I think, is better 
discussed at the policy level, and I will defer to policymakers 
to take that question.
    Ms. McSally. Okay, great.
    But resources-wise, intel-wise, we were very limited there, 
too.
    General Mayville. I can speak quickly to that. It continues 
to be a challenge. You mentioned two networks in your 
questions, one that goes east-west, from Kabul to Mali, and one 
that goes north-south in the Western Hemisphere. The demands 
for resources, the demands for enablers are in those areas, the 
non-state activities, is quite high and managing them is a 
challenge.
    Ms. McSally. Great. Thank you.
    My time is expired.
    The Chairman. Mr. MacArthur.
    Mr. MacArthur. Thank you, Mr. Chairman.
    And I sincerely want to thank all three of you for your 
service to our country. We really owe a debt of gratitude to 
those that keep us safe day and night, and I want to express 
that on behalf of my constituents.
    General Stewart, you mentioned three threats in your 
opening remarks. And I heard them this way: Capable military 
competitors. We are not the only game in town is how I heard 
that; an increase in ungoverned states, and you talked about 
ISIS. It is the third that has sort of arrested my attention, 
and that is, other actors' focus on space.
    And I wanted to ask you about that. You talked about anti-
satellite actions, and I thought I heard you say that with low 
cost and relative ease that rogue actors could interrupt our 
assets in space. And I think about, if I leave my cell phone 
home, I am an ungoverned state. We are so dependent on 
technology as a nation, both in our military response, but in 
our day-to-day life, in our financial markets, in everything we 
do.
    And so I wanted to ask you to elaborate a little bit on 
what do you mean by low cost and relative ease? How vulnerable 
are those assets to the degree you can talk about it? And then 
what do we do about that? What are we doing? What could we do 
to make those assets more secure?
    General Stewart. So I clearly wasn't as clear as I had 
hoped to be. The low cost and ease of capability is in 
reference to things in cyberspace, not in terms of our space 
assets.
    So in terms of cyberspace, it is relatively easy to buy the 
tools and find the information on the network to conduct low-
level cyberspace operations. Whether that is destroying or 
degrading, or in some cases being--denying services.
    So in terms of cyberspace activity, the cost of entry is 
low. In terms of counter-space, that is pretty high tech, and a 
pretty high barrier to entry there.
    Mr. MacArthur. Okay. Well, thank you.
    Cyberspace is a whole different subject, disturbing as 
well. But I think you have touched on that.
    My second question is for any of you, or all of you. And it 
is in regard to sequestration. I find it difficult to get my 
mind around how much is enough. How much spending is enough? To 
what degree does sequestration interrupt your operations? And I 
would like to hear some examples from you of where 
sequestration has squeezed your operational or intelligence-
gathering operations and compromised our readiness.
    General Stewart. I can tell you that we have taken cuts in 
modernizing our information services, which as we talked about, 
the cyberspace threat. We are taking some hits there.
    We have not invested, in fact, we have taken a significant 
cut in intelligence support to cyberspace operations, and that 
happened in 2013, if I remember the numbers correctly.
    And I think we are right on the margins, doing about as 
much as we can in support of counterterrorism operations as a 
result of the cuts. So those are three areas that come 
immediately to mind where we are really cutting into muscle at 
this point.
    Mr. MacArthur. So does it follow back to my first question 
about vulnerability in cyberspace, as it turns out, and that is 
an area that we are cutting investment in intel support to that 
area where you are saying it is relatively easy for people to 
come after us?
    General Stewart. I am uncomfortable with how much 
intelligence capability I have within DIA and within the DIA 
enterprise to support the exquisite level of intelligence you 
need to conduct full-spectrum cyberspace operations. I am 
uncomfortable with the level of capability at this point.
    Now, we built tremendous mission teams, and those things 
are in the process of being built. But in terms of how you 
support that with the level of intelligence I think you need to 
do this well, I don't think we are there at this point.
    Mr. MacArthur. All right, thank you.
    My time is expired.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    I thank you all for being here today. We touched on a lot 
of things. And it literally makes your head spin when you think 
of all the things we have to deal with to keep ourselves safe 
and to try and make the world a better place.
    You know, when it comes to so many of the things taking 
place, I think of the battles that we have, you know, we use 
our diplomatic intelligence, military, economic means to handle 
things. We also have to have the American people behind us. And 
I think of a quote from our colleague Sam Johnson, who spent 7 
years as a POW [prisoner of war] in Vietnam. He talks about, 
``The taste of freedom is an experience that is lost on the 
protected.'' And so you talk about a volunteer force, and those 
that serve, and the struggles that they go through, and the 
appreciation you have for peace in a safe environment in your 
home.
    But we need the American people to understand all that we 
face beyond just this room and amongst our peers in Congress as 
well. And it makes it difficult. But to shift just a little bit 
to go to another topic that ties into probably everything that 
we are talking about, the immediate threat is to our homeland. 
Are you comfortable with where we are right now as a nation as 
far as our border security? And what can we do to make it 
better, to make the American people feel safer when it comes to 
drugs, disease, terrorism, et cetera?
    General Stewart. In terms of how we secure the border, I 
probably am out of my depth to talk about that, but I can talk 
a little bit about the threat. There are Westerners who have 
gone to participate in activities in the Middle East. We think 
that number is upwards of 3,000. We know that some of those are 
Americans who have gone or have tried to go in support of 
operations with ISIL. And so that is a concern.
    I think within the country I am very confident that the FBI 
[Federal Bureau of Investigation] and the director of FBI have 
got a program to account for those individuals. And beyond that 
in terms of the policy, how we counter that, I probably am 
going to stop there, sir.
    Dr. Wenstrup. I thank you for your honesty on that.
    But let's also take a look at things near to us; possibly 
the rise of Russian involvement in Cuba. This is getting into 
more conventional type things, but how do you see that type of 
threat, and do you see something on the horizon with them 
engaging more in Cuba, which is very near to us?
    General Stewart. All right, we have seen no indications 
that the relationship between Russia and Cuba has changed. Cuba 
remains a base of operations. They provide a good bit of 
support--the Russians do--to the Cuban economy. We haven't seen 
anything that changed either in terms of growth or decrease in 
activity. So it is a pretty stable environment at this point.
    Dr. Wenstrup. Thank you very much.
    I yield back.
    Did you have something to add, sir?
    General Mayville. No, sir, I don't, but thank you for the 
question.
    The Chairman. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    General Stewart, are you familiar with the Chinese 
technology company Huawei, H-u-a-w-e-i?
    General Stewart. Yes, sir, Huawei.
    Mr. Brooks. Huawei, thank you.
    Is Huawei telecommunications equipment a potential threat 
to the United States security?
    General Stewart. I believe any time that we put systems on 
our networks that are developed in foreign countries, we ought 
to make sure that we have the assurances that that equipment is 
clean, can be looked at all the way down to the BIOS [basic 
input/output system] level to ensure that there are no 
malicious tools.
    So I won't necessarily single out the Chinese company, but 
I would be very concerned about our supply chain with any 
equipment that transits countries that we have dissimilar 
interests.
    Mr. Brooks. Well, in your position with the Defense 
Intelligence Agency, would you recommend or oppose any, say 
that again.
    General Stewart. Huawei.
    Mr. Brooks. Huawei.
    General Stewart. Yes sir.
    Mr. Brooks. I wish it was spelled that way. Would you 
approve the procurement of Huawei technology for DIA?
    General Stewart. I would be very hesitant without some real 
assurance that I could look inside of those equipments to make 
sure they did not have any malicious code or capability within 
those systems.
    Mr. Brooks. Are you familiar with any of their technology 
now being in use at the DIA?
    General Stewart. I am not aware. I will ask that question, 
but I would be surprised, because I think we are pretty good at 
making sure we have an approved list of vendors that we acquire 
equipment from. I can't imagine that that is one of the 
approved vendors.
    Mr. Brooks. Let me expand on that a little bit. If you are 
asked by the Secretary of Defense whether any of their 
technological equipment should be used in the Department of 
Defense generally, would you have a recommendation?
    General Stewart. I would probably want to make sure we have 
some pretty good assurance. I wouldn't be comfortable making 
that recommendation on its face.
    Mr. Brooks. Is there anything in particular about this 
Chinese company that causes you to be hesitant?
    General Stewart. Just controlling the entire supply chain 
of the equipment would make me a little bit nervous.
    Mr. Brooks. All right. General Stewart, do you have a 
judgment of how much unclassified controlled technical 
information China has obtained from cleared defense 
contractors?
    General Stewart. No, sir, not a definitive amount, but that 
is, in fact, an area where China continues to make attempts to 
steal intellectual property. I couldn't quantify the amount, 
but I would probably put it in a substantive amount.
    Mr. Brooks. How would you describe the term 
``substantive''?
    General Stewart. I am a Marine, sir. A lot.
    Mr. Brooks. A lot. Okay.
    General Stewart. I don't know that there is a real way, 
because in this space, you may take out a number of files and 
the files may contain a large quantity of information within 
the one particular file. So it becomes very hard to quantify 
how much is being taken through intellectual property theft.
    So I think it is an effort that China continues to pursue. 
And so I would say that there is a good deal, but I couldn't 
give you X number of terabytes or petabytes that would make 
anyone here comfortable. That would be an absolute guess.
    Mr. Brooks. So in your position with DIA, you are familiar 
with a lot of technical information with our DOD efforts that 
China has obtained. Of course, there is also the quantity that 
we don't yet know about. Would that be a fair statement?
    General Stewart. Theft of intellectual property is as old 
as history itself. And they are just doing it in cyberspace, 
where you can get a lot more than you could by sending someone 
to steal that property.
    So we do know some is taken. We don't know how much, and we 
don't know if we have a good sense if it is all, or just a 
portion.
    Mr. Brooks. And do you have a judgment as to whether or not 
China's theft of our defense technological information has 
adversely affected our defense capabilities?
    General Stewart. I would probably want to take that into a 
closed session, sir.
    Mr. Brooks. All right.
    Thank you, Mr. Chairman. Nothing further.
    The Chairman. Thank you. There is just a handful of things 
I wanted to touch on, gentlemen, before we go into the closed 
briefing. Just briefly, hopefully.
    Is the Ukrainian government outgunned by the Russian-
supported rebels?
    General Stewart. I looked at that this morning. And Russia 
has set up basically a no-fly zone over the area. So not a 
whole lot of Ukrainian aircraft can operate in the area. They 
have got a number of battalion tactical groups that are poised 
on the Russian side of the border that freezes Ukrainian forces 
from moving.
    The separatists are well armed. They have lots of artillery 
tubes. They have got support from the Russians in terms of ISR 
capability. I probably could, pretty close to saying outgunned.
    The Chairman. Okay. Next week we are going to have a 
hearing focusing on state actors using unconventional tactics, 
folks without uniforms, various forms of political warfare, 
subversion, and so forth.
    General Stewart, you struck me with one of your earlier 
comments saying, ``Our military intelligence was geared for 
formations marching across borders where we can see,'' and so 
forth. How is our military intelligence geared for detecting 
and dealing with these unconventional threats that we are 
increasingly seeing? And I am talking about in addition to 
insurgency sorts of, and terrorism operations?
    General Stewart. I would argue that over the last 12 or 13 
years, as we have gotten into this counterinsurgency, 
counterterrorism fight, we are probably better in that space 
than we have been in the past. It is very easy, though, to 
default back to that easy Soviet motorized regiment coming 
across the Fulda Gap. That is an easy, relatively easy problem 
set.
    I worry that we don't strike the right balance between 
understanding that threat that is really an existential, and 
understanding some of the smaller formations where you really 
need exquisite, on-the-ground support and on-the-ground 
intelligence in order to understand.
    Trying to find five guys in an urban environment is a hard, 
hard problem. You don't do that very effectively from some of 
our very technical capabilities. And so that makes 
understanding them very difficult, sir.
    General Mayville. Mr. Chairman, could I add one other area 
of concern, not only in the hybrid fight, but our adversaries' 
use of social media. I think that increasingly we are finding 
our adversaries very skillfully and very effectively using 
social media for military activities. And I am concerned about 
our ability to deal in this particular domain. So as you look 
at the non-state activities or the hybrid fights, I would also 
encourage that we consider the social media as well.
    The Chairman. That might be a good topic for our Emerging 
Threats Subcommittee to dig into a little bit further. I 
appreciate that.
    Just a few months ago, Ebola was a huge thing. The only 
folks who could deal with it was the U.S. military, and we sent 
them. Obviously, that was, or I assume, everybody assumes that 
was naturally caused and created.
    On the other hand, we know that terrorists have 
experimented with various sorts of biological agents. How are 
we set up to detect biological threats, whether naturally 
created, or manmade-induced in the future?
    General Stewart. Can I take that one for the record, come 
back with a good answer?
    The Chairman. Yes, sir.
    [The information is classified and retained in the 
committee files.]
    General Stewart. I don't have a good answer for that one, 
sir.
    The Chairman. I appreciate it.
    Mr. Chandler, I want to give the hard one to you. There are 
some folks who believe that increased domestic stability inside 
Russia and inside China will lead them to be more aggressive 
outside. They need to distract their people, they need to, you 
know, focus on an enemy, et cetera. It is going to be a natural 
reaction.
    Do you think that is true? Do you think that is something 
we have to prepare for because there are clearly stresses 
inside of Russia and China going on right now?
    Mr. Chandler. I think that the internal dynamics don't 
necessarily have a direct correlation to what either China or 
Russia are going to do externally. We have seen historically 
proven, and China is on a path for regional expansion and 
assertiveness in the East China Sea and South China Sea, 
regardless of the internal domestic situation.
    Russia is, in its near abroad, takes its most important 
actions to the near abroad. Regardless of that, Putin today has 
about an 85 percent approval rating, today, despite the 
economic problems that they are facing. But when challenged 
there, and you have to remember that the Russians have 
suffered, if you go back historically, tremendous amounts, and 
Putin is going to push forward whatever he needs to do on his 
agenda.
    So I don't necessarily think there is a one-for-one 
correlation between domestic strife and what either country 
will do to push outward. They have their objectives and they 
will go ahead and pursue those.
    The Chairman. Thank you. Fair point.
    General Stewart, and is it your assessment that it is 
possible to talk Iran out of voluntarily continuing their 
nuclear program?
    General Stewart. Can you negotiate them out of their 
nuclear program? I think that is a great question, Congressman. 
That is a great question. I know that Iran has done everything 
that it could at this point to retain that capability. The 
decision to go down the path of a nuclear weapon has not been 
made.
    So if the decision, when they have the capability to do so, 
has not been made, suggests that you could negotiate them out 
of doing a nuclear capability. Because there is nothing that 
could stop them right now if they said, if the Supreme Leader 
said go, they have all of the technology, they have all of the 
capability. They could go. So there must be something that 
would convince them to not take that path. So I think there is 
room for negotiation yet.
    The Chairman. Or at least delay.
    General Stewart. The delay probably adds not a whole lot 
for them. If they decided to go, they could go fairly quickly.
    The Chairman. Thank you.
    The last question I have got, you answered a previous 
question that roughly we think 30 percent of the folks who have 
been in Guantanamo Bay detention facility have either been 
confirmed or suspected of returning to the fight. But that 
figure is true over the life of the releases from Guantanamo, 
is it not? So that the folks that are left are the people who 
we have judged not--to be less releasable, if you will. And so 
the chances of the people who would be released now returning 
to the fight could well be even greater. Do you agree with 
that?
    General Stewart. I have significant concerns about the 
remaining detainees. And I think it is also important, I want 
to add for the record, that DIA was not consulted on the 
release of the Taliban Five. I wanted to make sure that got on 
the record. But the remaining detainees cause me concern, and I 
think we can talk about that in the closed session.
    The Chairman. Okay, I think that is good.
    Thank you all very much for answering questions on a whole 
variety of topics.
    We will adjourn this hearing, and then everybody has time 
to make a pit stop, but we will move quickly upstairs to 2212 
for a classified briefing.
    And with that, the hearing stands adjourned.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]


      
=======================================================================



                            A P P E N D I X

                            February 3, 2015

=======================================================================

  
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 3, 2015

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            February 3, 2015

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY

    General Stewart. Late in the hearing General Stewart came back to 
this question and answered it [see page 34]: ``General Stewart. I have 
significant concerns about the remaining detainees. And I think it is 
also important, I want to add for the record, that DIA was not 
consulted on release of the Taliban Five. I wanted to make sure that 
got on the record.''   [See page 16.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. O'ROURKE
    General Mayville. We have no intelligence indicators that U.S. 
actions related to Syria and Ukraine are generating new, specific 
threats to the United States. I defer analysis of potential threats to 
the Intelligence Community.   [See page 23.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. TAKAI
    General Mayville. Upon consultation with the US Army Staff and the 
Joint Staff J5/OSD Policy Global Posture Integration Team, force 
structure decisions beyond FY15 for Army's active force have not yet 
been made. Future force reductions could impact U.S. Army Pacific 
forces and increase risk to OPLANs and CONPLANs by reducing the number 
of ready and available forces required for successful plan execution.   
[See page 9.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 3, 2015

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. The United States has ceased its development of ``new'' 
nuclear weapons with new military capabilities to show its ``leadership 
in nonproliferation and disarmament.'' What state has followed our 
lead? Are any of the following states developing new nuclear weapons 
with new military capabilities: China, Russia, India, or Pakistan? Are 
they all doing so?
    General Stewart. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Can you please provide a complete list of states 
developing intercontinental ballistic missiles (ICBMs) with an 
intention of threatening the U.S. homeland?
    General Stewart. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Please describe the types and quantities of Russian 
tactical nuclear weapons. Is it true they deploy nuclear land mines, 
nuclear artillery, nuclear torpedoes, and other systems? How many of 
these tactical nuclear weapons do they have? How many does the United 
States have?
    General Stewart. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. There is a concept called disaggregation for space 
systems, which would change the approach from having large highly 
capable satellites to move to smaller distributed space systems. For 
example, one notion is to separate the strategic and tactical aspects 
of the missile warning missions. What would be the practical impact of 
such a move on potential Chinese and Russian counter-space activity? 
Would this provide greater protection to our space systems?
    General Stewart. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Recently, the Under Secretary for Defense for 
Acquisitions, Technology and Logistics briefed the committee on the 
state of U.S. technical superiority. Given the erosion manifest by our 
adversaries' relentless pursuit of U.S. intellectual capital, what are 
you and the Defense Intelligence Agency doing about it?
    General Stewart. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. Given that we have a need to more closely tie 
intelligence to acquisition and requirements, what is your assessment 
of the value/role of Scientific & Technical Intelligence in achieving 
that goal?
    General Stewart. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. What is the health of the Scientific and Technical 
Intelligence community in being able to support our acquisition, 
operations, and warfighters?
    General Stewart. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. How would you describe the relationship between 
Scientific & Technical Intelligence and S&T? Where do we need to move 
the communities in the future and why? What can Congress do to help in 
the National Defense Authorization Act of Fiscal Year 2016, including 
as part of the acquisition reform push we are engaged in at present?
    General Stewart. There is a close relationship between Scientific 
and Technical Intelligence (S&TI) and Science and Technology (S&T). 
``Science'' is the description, identification, and investigation of 
natural and physical processes and events to explain and understand 
observed events. ``Technology'' is the application of science to solve 
problems and to achieve specific objectives. S&T organizations in the 
U.S. and abroad leverage scientific understanding of defense and 
intelligence problems to devise technical solutions to defeat and 
overcome our adversaries' weapons systems and defense capabilities, and 
to understand unexplained foreign activities, research and 
construction. Defense Intelligence S&T solutions can include new ground 
and satellite collection platforms, nontraditional exploitation 
capabilities, and break-through weapons systems. S&TI is the systematic 
study and analysis of foreign S&T research, development, and 
engineering. S&TI products are used to warn of foreign technical 
developments and capabilities that may threaten or compromise U.S. 
commercial, defense, and intelligence advantage. S&TI's focus spans 
near-term weapons development to game-changing technologies and 
landmark scientific advances.
    DIA's Defense Intelligence Office for Scientific and Technical 
Intelligence is responsible for integrating scientific and technical 
intelligence across the defense intelligence enterprise to develop a 
strategic S&TI plan aimed at preventing technical surprise in critical 
domains. The mission of DIA's Directorate for Science and Technology is 
to develop and deliver leading-edge scientific and technical 
understanding and capabilities to provide our warfighters and 
policymakers with a decisive advantage.
    We fully endorse and support the current efforts underway in USD 
(AT&L) related to the Better Buying Power 3.0 initiative: Anticipate 
and plan for responsive and emerging threats and build stronger 
partnerships between the acquisition, requirements and intelligence 
communities. The defense intelligence enterprise must become more 
adaptive, responsive, and flexible to best address the time-sensitive 
needs of the defense acquisition and requirements communities. DIA is 
currently piloting several new tools and capabilities to provide 
greater acquisition efficiency.
    Mr. Rogers. Russia and China like to complain about U.S. missile 
defenses and prompt global strike systems. So, I have two questions for 
you: (1) Are Russia and China developing missile defenses to counter 
U.S. nuclear forces and are they developing their own prompt strike 
capabilities? (2) If the U.S. ceased to deploy missile defense and 
halted development of prompt strike systems tomorrow, would Russia 
cease its incredible reliance on nuclear weapons? (3) Does Russia 
deploy nuclear-tipped ballistic missile defense systems? Does the 
United States?
    General Stewart. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. Do you believe we have the necessary industrial base 
capacity for our current as well as our future military commitments?
    General Stewart. Generally speaking, contracts with the defense 
industrial base support our current capabilities with manageable risks 
and are meeting current military commitments. While future military 
commitments are largely undefined, additional capacity beyond 
contractual requirements may require additional time and funding. I 
defer further analysis to the Office of the Secretary of Defense, 
Acquisition, Technology and Logistics.
    Mr. Shuster. How would a reduction in industrial base capacity 
impact the ability of the warfighter to respond to the array of threats 
that have been mentioned here today?
    General Stewart. The defense industrial base is extremely diverse, 
with varying capabilities and business dynamics residing in separate 
sectors and tiers of the supply chain. The Office of Manufacturing and 
Industrial Base Policy (MIBP), in coordination with the Services, 
perform multiple industrial base assessments and analyses across 
programs to identify and mitigate risks that impede the Department's 
effort to deliver systems and services to the warfighter. I defer to 
the MIBP office within the OSD(AT&L) staff.
    Mr. Shuster. In your estimation, is the United States maintaining 
its historical advantage in industrial base capability compared to 
emerging powers like China?
    General Stewart. DIA is not the proper agency to address this 
question and defers to the Office of the Secretary of Defense.
    Mr. Shuster. Do you believe the industrial base still has the 
capacity to support U.S. action in a major, large-scale conflict?
    General Mayville. Generally speaking, contracts with the defense 
industrial base support our current capabilities, including surge 
capacity in some instances, with manageable risks. Because commercial 
suppliers normally guarantee only what is under contract, any 
additional capacity beyond contractual requirements may require 
additional time and funding. I defer further analysis to the Office of 
the Secretary of Defense, Acquisition, Technology and Logistics.
    Mr. Shuster. If our industrial base capacity were reduced through 
the loss of one or more of our depots, how badly would this hurt our 
military's ability to respond?
    General Mayville. To prevent the loss of necessary depot capacity, 
10 U.S.C Sec. 2464, Core Logistics Capabilities requires the Services 
to maintain a ready and controlled source of technical competence and 
the resources necessary to ensure effective and timely response to 
mobilization, national defense contingency situations, and other 
emergency requirements. The Services annually report their ability to 
meet this requirement for core depot capacity. I defer further impact 
analysis to the Office of the Secretary of Defense, Acquisition, 
Technology and Logistics.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. AGUILAR
    Mr. Aguilar. The committee has been exploring acquisition reform to 
ensure the military has the best possible equipment for the mission at 
the best possible cost. What are your thoughts about how best to 
approach this reform effort while ensuring we have the best 
capabilities to respond to threats? General Stewart indicated that the 
Defense Intelligence Agency is doing a review about the deficiencies in 
the current acquisition process and that there may be significant room 
for improvement. Please provide the committee with at least an initial 
overview of your findings. I hope we can work together to improve the 
process to ensure we are able to respond efficiently and effectively to 
threats around the world.
    General Stewart. DIA has been actively involved with OUSD (AT&L) to 
improve the overall acquisition process and develop stronger linkages 
within acquisition policy through USD(AT&L)'s Better Buying Power 3.0 
initiative. DIA is an IC leader in areas such as competition where DIA 
achieved 81% against a 74% FY14 competition goal, and a small business 
utilization rate close to 25%. DIA continues in its efforts to improve 
intelligence support to acquisition and has an active dialog with OUSD 
(AT&L) and USD(I) on acquisition improvements. DIA also completed a 
Contracting Task Force in 2013 that uncovered a few cases of 
duplication and overlap in the acquisition process, and adjustments 
were made to various Acquisition Strategies which were incorporated 
into the Spend Plan build for 2014 and the out-years. DIA contracting 
is set up to be rapid and agile, with many Indefinite Delivery 
Indefinite Quantity type contracts, that DIA (and in many cases other 
agencies and the Services) can place orders against as warfighter needs 
arise. DIA also utilizes flexibility with placing surge requirements on 
many of our contracts, to be rapidly utilized as world events unfold. 
Additionally, DIA has a strong working relationship with the contractor 
community, and has initiated industry forums and cross-talks on a 
routine basis with appropriate business-side personnel to compare best 
practices and lessons-learned, which enhances our partnerships.
    From the defense intelligence perspective, DIA has conducted a 
review on intelligence support to acquisition and is developing a plan 
to address how DIA and the Defense Intelligence Enterprise can better 
support defense acquisition requirements. DIA recognizes the 
difficulties in providing intelligence on future threats to OUSD(AT&L) 
as a factor to determine future capabilities and weapon systems of the 
Department of Defense. Within DIA, the Defense Intelligence Officer for 
Scientific and Technical Intelligence, in partnership with the 
Directorate for Intelligence, has taken the lead to improve the 
intelligence support to acquisition in the Department of Defense. A 
number of efforts have been initiated, such as evolving specific 
acquisition-intelligence products to dynamically address intelligence 
requirements, modernizing analytic production, and informing both the 
Requirements and Acquisition systems at major decision points earlier 
in the process.
    DIA is aware of the new acquisition legislation that Chairman 
Thornberry has recently introduced and applauds the Chairman's efforts 
to transform the acquisition process. We look forward to improving many 
of our policies and procedures as the laws change in the future.
    Mr. Aguilar. The committee has been exploring acquisition reform to 
ensure the military has the best possible equipment for the mission at 
the best possible cost. What are your thoughts about how best to 
approach this reform effort while ensuring we have the best 
capabilities to respond to threats? General Stewart indicated that the 
Defense Intelligence Agency is doing a review about the deficiencies in 
the current acquisition process and that there may be significant room 
for improvement. Please provide the committee with at least an initial 
overview of your findings. I hope we can work together to improve the 
process to ensure we are able to respond efficiently and effectively to 
threats around the world.
    General Mayville. Congressman Aguilar, thank you for the 
opportunity to answer this question regarding acquisition reform. I 
agree that we must ensure our acquisition system delivers the best 
capabilities to respond to worldwide threats, but am unfamiliar with 
DIA's review of the acquisition process. I respectfully request 
deferral to the Office of the Secretary of Defense for Acquisitions, 
Technology and Logistics to comment on the findings of the DIA 
acquisition process review.
    Mr. Aguilar. The committee has been exploring acquisition reform to 
ensure the military has the best possible equipment for the mission at 
the best possible cost. What are your thoughts about how best to 
approach this reform effort while ensuring we have the best 
capabilities to respond to threats? General Stewart indicated that the 
Defense Intelligence Agency is doing a review about the deficiencies in 
the current acquisition process and that there may be significant room 
for improvement. Please provide the committee with at least an initial 
overview of your findings. I hope we can work together to improve the 
process to ensure we are able to respond efficiently and effectively to 
threats around the world.
    Mr. Chandler. Congressman Aguilar, thank you for the opportunity to 
address military equipment acquisition reform. While I agree that 
ensuring our military has the best possible equipment at the best 
possible price is an important priority, I must respectfully request to 
defer comment to the experts on the OSD and DIA staffs that specialize 
in Acquisitions, Technology, and Logistics.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
